      Department of Homeland Security




            Information Technology Management
              Letter for the FY 2011 U.S. Customs
                and Border Protection Financial
                        Statement Audit




OIG-12-77                                           May 2012

                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                          May 1, 2012

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the Department.

This report presents the information technology (IT) management letter for the FY 2011 U.S.
Customs and Border Protection (CBP) Component financial statement audit as of September 30,
2011. It contains observations and recommendations related to information technology internal
control that were summarized in the Independent Auditors’ Report dated January 27, 2012 and
presents the separate restricted distribution report mentioned in that report. The independent
accounting firm KPMG LLP (KPMG) performed the audit procedures at the CBP component in
support of the DHS FY 2011 financial statements and prepared this IT management letter.
KPMG is responsible for the attached IT management letter and the conclusions expressed in it.
We do not express opinions on DHS’ financial statements or internal control or conclusion on
compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                     Frank Deffer
                                     Assistant Inspector General
                                     Office of Information Technology Audits
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006


March 28, 2012


Acting Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
U.S. Customs and Border Protection

We have audited the consolidated balance sheets of the U.S. Customs and Border Protection (CBP),
a Component of the U.S. Department of Homeland Security (DHS), as of September 30, 2011 and
2010, and the related consolidated statements of net cost, changes in net position, and custodial
activity, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended. In planning and performing our audit
of CBP’s consolidated financial statements, we considered CBP’s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing our opinion on
the consolidated financial statements.
In connection with our fiscal year (FY) 2011 engagement, we considered CBP’s internal control
over financial reporting by obtaining an understanding of CBP’s internal controls, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests
of controls in order to determine our procedures. We limited our internal control testing to those
controls necessary to achieve the objectives described in Government Auditing Standards and the
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The
objective of our engagement was not to provide an opinion on the effectiveness of CBP’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
CBP’s internal control over financial reporting.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or combination of deficiencies,
in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance.
Our audit of CBP as of, and for the year ended, September 30, 2011, disclosed a significant
deficiency in the areas of Information Technology (IT) security management, access controls,
configuration management, segregation of duties, contingency planning, and application controls.
These matters are described in the General IT Control Findings and Recommendations and the
Application Control Finding and Recommendation sections of this letter.
The significant deficiency described above is presented in our Independent Auditors’ Report, dated
January 27, 2012. This letter represents the separate restricted distribution letter mentioned in that
report.


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
The control deficiencies described herein have been discussed with the appropriate members of
management, and communicated through a Notice of Finding and Recommendation (NFR), and are
intended For Official Use Only.
Because of its inherent limitations, internal control over financial reporting may not prevent, or
detect and correct misstatements. Also, projections of any evaluation of effectiveness to future
periods are subject to the risk that controls may become inadequate because of changes in
conditions, or that the degree of compliance with the policies or procedures may deteriorate. We
aim to use our knowledge of CBP gained during our audit engagement to make comments and
suggestions that are intended to improve internal control over financial reporting or result in other
operating efficiencies.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key CBP financial systems and IT infrastructure within the scope of the FY 2011
CBP consolidated financial statement audit in Appendix A; a description of each internal control
finding in Appendix B; and the current status of the prior year NFRs in Appendix C.
This communication is intended solely for the information and use of DHS and CBP management,
the DHS Office of Inspector General (OIG), the OMB, the U.S. Government Accountability Office,
and the U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


Very truly yours,
                               Department of Homeland Security
                              U.S. Customs and Border Protection
                           Information Technology Management Letter
                                      September 30, 2011

                INFORMATION TECHNOLOGY MANAGEMENT LETTER 


                                  TABLE OF CONTENTS


                                                                                                     Page


Objective, Scope, and Approach                                                                        1


Summary of Findings and Recommendations                                                               2


General IT Control Findings and Recommendations                                                       3


       Security Management                                                                            3


        After-Hours Physical Security Testing                                                         4


        Social Engineering Testing                                                                    5


       Access Control                                                                                 5


       Configuration Management                                                                       5


       Segregation of Duties                                                                          5


       Contingency Planning                                                                           6


Application Control Finding and Recommendation                                                        8





                                            APPENDICES

Appendix    Subject                                                                                  Page

   A        Description of Key CBP Financial Systems and IT Infrastructure within the Scope of the    9

            FY 2011 DHS Financial Statement Audit 


   B        FY 2011 Notices of IT Findings and Recommendations at CBP                                 12

            -    Notices of Findings and Recommendations – Definition of Severity Ratings             13

   C        Status of Prior Year Notices of Findings and Recommendations and Comparison to            17

            Current Year Notices of Findings and Recommendations at CBP 


   D        Report Distribution                                                                       19

                              Department of Homeland Security
                             U.S Customs and Border Protection
                          Information Technology Management Letter
                                     September 30, 2011

                          OBJECTIVE, SCOPE, AND APPROACH

We have audited the consolidated balance sheets of the U.S. Customs and Border Protection (CBP),
a component of the U.S. Department of Homeland Security (DHS), and related consolidated
statements of net cost, changes in net position, and custodial activity, and the combined statements
of budgetary resources (hereinafter, referred to as “consolidated financial statements”) as of
September 30, 2011 and 2010. In connection with our audit of CBP’s consolidated financial
statements, we performed an evaluation of general information technology controls (GITCs), to
assist in planning and performing our audit. The Federal Information System Controls Audit
Manual (FISCAM), issued by the Government Accountability Office (GAO), formed the basis of
our GITC evaluation procedures. The scope of the GITC evaluation is further described in
Appendix A.
FISCAM was designed to inform financial auditors about information technology (IT) controls and
related audit concerns to assist them in planning their audit work and to integrate the work of
auditors with other aspects of the financial audit. FISCAM also provides guidance to IT auditors
when considering the scope and extent of review that generally should be performed when
evaluating general controls and the IT environment of a federal agency. FISCAM defines the
following five control functions to be essential to the effective operation of the general IT controls
environment:
•	 Security Management (SM) – Controls provide reasonable assurance that security management
   is effective.
•	 Access Control (AC) – Controls provide reasonable assurance that access to computer resources
   (data, equipment, and facilities) is reasonable and restricted to authorized individuals.
•	 Configuration Management (CM) – Controls provide reasonable assurance that changes to
   information system resources are authorized and systems are configured and operated securely
   and as intended.
•	 Segregation of Duties (SD) – Controls provide reasonable assurance that incompatible duties are
   effectively segregated.
•	 Contingency Planning (CP) – Controls provide reasonable assurance that contingency planning:
   (1) protects information resources and minimizes the risk of unplanned interruptions and (2)
   provides for recovery of critical operations should interruptions occur.
To complement our general IT controls audit procedures, we also performed technical security
testing for key network and system devices, as well as testing over key financial application
controls in the CBP environment. The technical security testing was performed from within select
CBP facilities, and focused on production devices that directly support key general support systems.
In addition, we performed application control tests on a limited number of CBP’s financial systems.
The application control testing was performed to assess the controls that support the financial
systems’ internal controls over the input, processing, and output of financial data and transactions.
FISCAM defines application controls as follows: Application controls are the structure, policies,
and procedures that apply to separate, individual application systems, such as accounts payable,
inventory, or payroll.

Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 1
                              Department of Homeland Security
                             U.S Customs and Border Protection
                          Information Technology Management Letter
                                     September 30, 2011

               SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2011, CBP took corrective action to address prior year IT control weaknesses. For
example, CBP made improvements over various system logical access processes and system
security settings. However, during FY 2011, we identified new and continuing general IT control
weaknesses that could potentially impact CBP’s financial data. The most significant weaknesses
from a financial statement audit perspective related to controls over access to programs and data.
Collectively, the IT control weaknesses limited CBP’s ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and
availability. In addition, these weaknesses negatively impacted the internal controls over CBP
financial reporting and its operation, and we considered them to collectively represent a significant
deficiency for CBP under standards established by the American Institute of Certified Public
Accountants. The IT findings were combined into a significant deficiency regarding IT for the FY
2011 audit of the CBP consolidated financial statements.
In FY 2011, our IT audit work identified 36 IT findings, of which 19 were repeat findings from the
prior year and 17 were new findings. In addition, we determined that CBP remediated 4 IT findings
identified in previous years. Collectively, these findings represent deficiencies in all five FISCAM
key control areas, as well as deficiencies related to financial system functionality. These
weaknesses may increase the risk that the confidentiality, integrity, and availability of system
controls and CBP financial data could be exploited thereby compromising the integrity of financial
data used by management and reported in CBP’s financial statements.
The recommendations made by us in this report are intended to be helpful, and may not fully
remediate the related deficiency. CBP management has the responsibility to determine the most
appropriate methods for addressing the weaknesses identified based on their system capabilities and
available resources.




Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 2
                              Department of Homeland Security
                             U.S Customs and Border Protection
                          Information Technology Management Letter
                                     September 30, 2011

          GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS

Findings:

During the FY 2011 CBP financial statement audit, we identified the following IT and financial
system control deficiencies that in the aggregate are considered a significant deficiency:

Security Management
•	 Systems certification and accreditation:
    -    System security plan updates were not current or effectively communicated for one system;
    -    Security test and evaluation documentation was not completed annually for multiple
         systems, in accordance with DHS policy; and
    -    Interconnection security agreements (ISA) were not fully documented for one system.
•	 Non-current policies and procedures:
    -	    Separation procedures for contract employees were out of date and included incomplete and
         inaccurate references.
•	 Lack of compliance with existing policies:
    -    IT-based specialized security training requirements had not been fully implemented and
         enforced;
    -    Several instances where background investigations of federal employees and contractors
         employed to operate, manage and provide security over IT systems were not being properly
         conducted;
    -	   Non-disclosure agreements were not consistently completed;
    -    Exit processing procedures for transferred/terminated personnel, including contractors,
         were not consistently followed or communicated internally in a timely manner; and
    -	   Evidence on whether CBP workstations that are not currently part of the Microsoft Active
         Directory are being managed to receive current security patches could not be provided.




Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 3
                             Department of Homeland Security
                            U.S Customs and Border Protection
                         Information Technology Management Letter
                                    September 30, 2011

After-Hours Physical Security Testing
During the after-hours physical security walkthrough of selected CBP locations in the Washington,
D.C. area, 18 instances were identified where assets and information with inadequate protection
against unauthorized access, misuse, or misappropriation. Specific weaknesses identified and the
locations where the instances were identified are included in the following matrix:
                                        CBP Locations Tested
                                                                                       Total
                     NDC-7
  Exceptions                                 Beauregard     Tyson’s     National     Exceptions
                     (BLM        NDC-1
  Noted                                     (Alexandria)    Corner       Place        by Type
                    Building)
  Passwords             0           2            0              0           2              4
  For Official
  Use Only              0           2            0              0           0              2
  (FOUO)
  Keys/Badges           0           0            0              0           0              0
  Personally
  Identifiable
                        1           5            0              0           1              7
  Information
  (PII)
  Server
  Names/IP              1           1            0              0           0              2
  Addresses
  External
  Drives,
  Removable
  Media,
                        1           0            0              0           1              2
  Blackberries,
  or Other
  Unsecured
  Property
  Credit Card
                        1           0            0              0           0              1
  Numbers
  Classified
                        0           0            0              0           0              0
  Documents

  Total
  Exceptions by         4          10            0              0           4              18
  Location

Note that approximately 15 desks / offices were examined at each of the locations above.




Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 4
                                  Department of Homeland Security
                                 U.S Customs and Border Protection
                              Information Technology Management Letter
                                         September 30, 2011

Social Engineering Testing
Social engineering is defined as the act of attempting to manipulate or deceive individuals into
taking action that is inconsistent with DHS policies, such as divulging sensitive information or
allowing /enabling computer system access. The term typically applies to deception for the purpose
of information gathering, or gaining computer system access, shown in the following table:
         Total        Total
                                   Number of people who provided a username and/or password
         Called      Answered
          36             25        1 – Both User Name and Password

Access Control
•	 Deficiencies in management of application and/or database accounts, network, and remote user
   accounts:
    -	     Strong password requirements were not enforced for network accounts;
    -      User account lists were not periodically reviewed for appropriateness, and users were not
           disabled or removed promptly upon personnel termination; and
    -	      Initial access and modified access granted to application and/or database, network, and
           remote users were not properly documented and authorized.
•	 Ineffective or insufficient use of available audit logs:
    -      Logs of auditable events were not being reviewed to identify potential incidents, or were
           reviewed by those with conflicting roles; and 

    -      Documented procedures for audit log follow-up did not meet DHS requirements. 


Configuration Management
•	 Lack of documented policies and procedures:
    -	      Configuration, vulnerability, and patch management plans had not been established and
           implemented, or did not comply with DHS policy.
•	 Security patch management and configuration deficiencies were identified during the
   vulnerability assessment on hosts supporting the key financial applications and general support
   systems.

Segregation of Duties
•	 Lack of evidence to show that least privilege and segregation of duties controls exist for one
   system; and
•	 Users with privileged access were granted conflicting roles which compromised segregation of
   duties principles. Further, mitigating controls were not in place to identify unauthorized
   activities performed by individuals with conflicting access roles.




Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 5
                             Department of Homeland Security
                            U.S Customs and Border Protection
                         Information Technology Management Letter
                                    September 30, 2011

Contingency Planning
•	 One system’s contingency plan was not updated based on recent testing results; and
•	 Access to backup media was not regularly reviewed and updated based on changes to personnel
   staffing and job roles.
Recommendations:
We recommend that the CBP Chief Information Officer (CIO) and Chief Financial Officer (CFO),
in coordination with the DHS Office of Chief Financial Officer and the DHS Office of the Chief
Information Officer, make the following improvements to CBP’s financial management systems
and associated information technology security program.

Security Management
•	 Update systems security policies and procedures to be in compliance with DHS policy.

•	 Maintain and update and system security plans and other relevant system documentation to
   reflect current conditions and results of testing and control reviews.

•	 Maintain current ISAs for in-scope applications, and maintain a current listing of these
   interconnections.

•	 Maintain, update, and communicate personnel hiring and termination policies. In addition,
   enforce the implementation of internal controls for the personnel processes including the
   completion of non-disclosure agreements.

•	 Complete all investigations and periodic reinvestigations of personnel as required by DHS
   policy during fiscal year 2012.

•	 Continue with the development and testing of a Role-Based Security Training (RBST) pilot
   program based on the DHS RBST program model.

•	 Develop a process to ensure workstations are properly updated with security patches.

After-Hours Physical Security Testing:
•	 Continue efforts to enhance the CBP security awareness campaigns.

Social Engineering Testing:
•	 Implement multiple types of security awareness reminders and opportunities to educate users on
   the importance of protecting CBP information systems and data.

Access Control
•	 Implement and configure technology to record user account changes. In addition, implement a
   process to regularly and independently reconcile changes made to user accounts within the
   application to source authorization documentation.

Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 6
                              Department of Homeland Security
                             U.S Customs and Border Protection
                          Information Technology Management Letter
                                     September 30, 2011


•	 Ensure that all requests for general and emergency access to applications, systems, and
   networks, including remote users, are supported by an appropriately authorized request for
   access. Conduct training for security administrators as necessary to ensure compliance with this
   process.

•	 Recertify, revalidate, and update privileged and non-privileged user access.

•	 Revoke user access in a timely manner when personnel are transferred, separated from the
   organization, or when job duties change and no longer necessitate a need for system access.

•	 Implement a process for logging changes to critical and sensitive data and regularly reviewing
   the contents of these logs. Maintain evidence of the review of these logs.

•	 Implement controls to enforce password complexity requirements including protecting against
   the use of passwords that contain dictionary-based words.

Configuration Management
•	 Finalize and formally distribute an updated configuration management plan.

•	 Patch, upgrade, correct, or obtain waivers for any identified weaknesses as a result of the IT
   technical vulnerabilities assessment.

Segregation of Duties
•	 Identify system and application roles that should not be combined based on the principles of
   segregation of duties. When segregation of duties are compromised based on a valid business
   reason, perform and document independent reviews of activities executed by users with non­
   segregated access.

Contingency Planning
•	 Maintain current contingency plans for the in-scope systems that reflect current conditions and
   the results of testing the contingency plans.

•	 Periodically recertify personnel with access to backup media stored off site. Maintain
   documentation of this recertification of access.




Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 7
                             Department of Homeland Security
                            U.S Customs and Border Protection
                         Information Technology Management Letter
                                    September 30, 2011

           APPLICATION CONTROL FINDING AND RECOMMENDATION

During the FY 2011 CBP financial statement audit, we identified the following application control
and financial system functionality deficiency that, when aggregated with the GITC deficiencies, is
considered a significant deficiency:
Finding:

•	 One financial system lacks the controls necessary to prevent, or detect and correct excessive
   drawback claims. Specifically, the programming logic for the system does not link drawback
   claims to imports at a detailed, line item level. This would potentially allow the importer to
   receive claims in excess of an allowable amount.

Recommendation:

•	 We recommend that the CBP CIO and CFO, in coordination with the DHS Office of Chief
   Financial Officer and the DHS Office of the Chief Information Officer prioritize, develop, and
   deploy functionality that will allow CBP to prevent or detect and correct excessive drawback
   claims.




Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 8
                                                                               Appendix A
                           Department of Homeland Security
                          U.S. Customs and Border Protection
                       Information Technology Management Letter
                                  September 30, 2011




                                     Appendix A 



      Description of Key CBP Financial Systems and IT 

Infrastructure within the Scope of the FY 2011 DHS Financial 

                       Statement Audit 





Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 9
                                                                                      Appendix A
                             Department of Homeland Security
                            U.S. Customs and Border Protection
                         Information Technology Management Letter
                                    September 30, 2011

Below is a description of significant U.S. Customs and Border Protection (CBP) financial
management systems and supporting IT infrastructure included in the scope of CBP’s FY 2011
financial statement audit.
Automated Commercial Environment (ACE)

ACE is the commercial trade processing system being developed by CBP to facilitate trade while
strengthening border security. It is CBP’s plan that this system will replace ACS when ACE is fully
implemented. The mission of ACE is to implement a secure, integrated, government-wide system
for the electronic collection, use, and dissemination of international trade and transportation data
essential to Federal agencies. ACE is being deployed in phases, without a final, full deployment
date due to funding setbacks. As ACE is partially implemented now and processes a significant
amount of revenue for CBP, ACE was included in full scope in the FY 2011 financial statement
audit. The ACE system is located in Virginia (VA).

Automated Commercial System (ACS)
ACS is a collection of mainframe-based business process systems used to track, control, and
process commercial goods and conveyances entering the United States territory, for the purpose of
collecting import duties, fees, and taxes owed to the Federal government. ACS collects duties at
ports, collaborates with financial institutions to process duty and tax payments, provides automated
duty filing for trade clients, and shares information with the Federal Trade Commission on trade
violations and illegal imports. The ACS system was included in full scope in the FY 2011 financial
statement audit. The ACS system is located in VA.

National Data Center – Local Area Network (NDC LAN)
The NDC-LAN was absorbed by the DC Metro LAN and the Data Center Infrastructure LAN
during the end of FY 2011. The NDC-LAN provided more than 1,200 CBP contractor and
employee user’s access to enterprise-wide applications and systems. The mission of the NDC-LAN
was to the support Field Offices/Agents with applications and technologies in the securing and
protection of our nation's borders. The NDC-LAN consisted of five Novell NetWare 6.5 servers,
various workstations and printers/plotters, 11 Cisco switches, and the associated Novell Netware
management applications. There were no major or minor applications running on the NDC-LAN
other than the file and print services associated with the Novell NetWare servers. The NDC-LAN
was an unclassified system processing For Official Use Only (FOUO) data. As the NDC-LAN
included the environment where the ACE, ACS, and SAP applications physically reside, the NDC-
LAN was included in limited scope in the FY 2011 financial statement audit. The NDC LAN is
located in VA.




Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 10
                                                                                Appendix A
                            Department of Homeland Security
                           U.S. Customs and Border Protection
                        Information Technology Management Letter
                                   September 30, 2011


Systems, Applications, and Products, Enterprise Central Component (SAP ECC)
SAP is a client/server-based financial management system and includes the Funds Management,
Budget Control System, General Ledger, Real Estate, Property, Internal Orders, Sales and
Distribution, Special Purpose Ledger, and Accounts Payable modules. These modules are used by
CBP to manage assets (e.g., budget, logistics, procurement, and related policy), revenue (e.g.,
accounting and commercial operations: trade, tariff, and law enforcement), and to provide
information for strategic decision making. The SAP ECC financial management system was included
in full scope in the FY 2011 financial statement audit. The SAP ECC system is located in VA.




Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 11
                                                                               Appendix B
                           Department of Homeland Security
                          U.S. Customs and Border Protection
                       Information Technology Management Letter
                                  September 30, 2011




                                     Appendix B 

FY 2011 Notices of IT Findings and Recommendations at CBP 





Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 12
                                                                                        Appendix B
                                Department of Homeland Security
                               U.S. Customs and Border Protection
                            Information Technology Management Letter
                                       September 30, 2011

Notices of Findings and Recommendations (NFR) – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on
the CBP Independent Auditors’ Report.

      1 – Not substantial
      2 – Less significant
      3 – More significant

The severity ratings indicate the degree to which the deficiency influenced the determination of
severity for reporting purposes.

These ratings are provided only to assist CBP in prioritizing the development of its corrective action
plans for remediation of the deficiency.




Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 13
                                                                                                                            Appendix B
                                                   Department of Homeland Security
                                                  U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                          September 30, 2011


                                                                                                                2011
                                                                                                                         New     Repeat
FY 2011 NFR #                                NFR Title                                 FISCAM Control Area    Severity
                                                                                                                         Issue    Issue
                                                                                                               Rating
                Security Awareness Issued Identified During Enhanced Security
CBP-IT-11-01                                                                              Access Controls        2                 X
                Testing
CBP-IT-11-02    Physical Security Issues Identified During Enhanced Security Testing      Access Controls        2                 X
CBP-IT-11-03    Inadequate Role-based Security Training Program                         Security Management      2                 X
CBP-IT-11-04    Segregation of Duties Control Weaknesses Within a CBP System              Access Controls        3                 X
CBP-IT-11-05    CBP System User Profile Change Logs are Not Reviewed                      Access Controls        3                 X
                Lack of Monitoring of Developer Emergency/Temporary Access to
CBP-IT-11-07                                                                              Access Controls        3                 X
                CBP System Production
CBP-IT-11-08    CBP System Novell Server Audit Logs Review Weaknesses                     Access Controls        2        X
CBP-IT-11-09    CBP System Contingency Plan Has Not Been Updated                       Contingency Planning      1        X
CBP-IT-11-10    Lack of Update to CBP System Security Plan                              Security Management      2        X
                Incomplete Background Investigations and Reinvestigations for CBP
CBP-IT-11-11                                                                            Security Management      2                 X
                Employees and Contractors
                Contractor Separation Procedures Were Not Updated and Contractor
CBP-IT-11-12                                                                              Access Controls        2                 X
                Separation Forms are Not Maintained
CBP-IT-11-13    Inadequate Documentation of CBP System Access Change Requests             Access Controls        2                 X
CBP-IT-11-14    CBP System User Profile Change Logs Are Not Reviewed                      Access Controls        3        X
                Incomplete Access Request Forms and Approvals for New CBP
CBP-IT-11-15                                                                              Access Controls        3                 X
                System Accounts
CBP-IT-11-16    Lack of Annual Recertification of CBP System Users                        Access Controls        3        X
                Incomplete Access Request Approval Forms for New Remote Access
CBP-IT-11-17                                                                              Access Controls        2        X
                User Accounts




        Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection Financial Statement Audit
                                                              Page 14
                                                                                                                               Appendix B
                                                   Department of Homeland Security
                                                  U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                          September 30, 2011

                                                                                                                   2011
                                                                                                                            New     Repeat
FY 2011 NFR #                                NFR Title                                 FISCAM Control Area       Severity
                                                                                                                            Issue    Issue
                                                                                                                  Rating
                Incomplete Documentation of Interconnection Security Agreements for
CBP-IT-11-18                                                                              Access Controls           2                 X
                CBP System Connections
CBP-IT-11-19    Contractor Non-Disclosure Agreements are Incomplete                       Access Controls           2                 X
CBP-IT-11-20    Weaknesses Over the Employee Separation Process                           Access Controls           2                 X
CBP-IT-11-21    CBP System Audit Logs Not Appropriately Reviewed                          Access Controls           3        X
CBP-IT-11-22    Lack of Access Requests and Approvals for CBP System Accounts             Access Controls           3                 X
CBP-IT-11-23    Lack of Update to CBP System Security Test & Evaluation (ST&E)          Security Management         2        X
                CBP System Configuration Management Policies and Procedures Not
CBP-IT-11-24                                                                          Configuration Management      2        X
                Formally Documented
CBP-IT-11-25    Weaknesses in Allowed Network Authenticators                              Access Controls           2        X
CBP-IT-11-26    CBP System Audit Logs Review Weaknesses                                   Access Controls           3                 X
                Security Weaknesses Identified During the Technical Vulnerability
CBP-IT-11-27                                                                            Security Management         2                 X
                Assessment
CBP-IT-11-28    Security Posture of CBP Workstations                                    Security Management         2                 X
CBP-IT-11-30    Separated Personnel on CBP System User Listing                            Access Controls           3        X
CBP-IT-11-31    Lack of Functionality in a CBP System                                   Application Controls        3                 X
CBP-IT-11-32    Separated Personnel with Active Access Privileges to CBP System           Access Controls           2        X
CBP-IT-11-33    Lack of Update to CBP System ST&E                                       Security Management         2        X
CBP-IT-11-34    Lack of Update to CBP System ST&E                                       Security Management         2        X
CBP-IT-11-35    Access to Media Recertification is Incomplete                           Contingency Planning        1                 X
CBP-IT-11-36    Lack of Annual Recertification of CBP System Users                        Access Controls           3        X



        Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection Financial Statement Audit
                                                              Page 15
                                                                                                                               Appendix B
                                                         Department of Homeland Security
                                                        U.S. Customs and Border Protection
                                                     Information Technology Management Letter
                                                                September 30, 2011

                                                                                                                   2011
                                                                                                                            New      Repeat
  FY 2011 NFR #                                    NFR Title                            FISCAM Control Area      Severity
                                                                                                                            Issue     Issue
                                                                                                                  Rating
   CBP-IT-11-37       CBP System Privileged User Access Weaknesses                         Access Controls          3        X
                      CBP System Segregation of Duties Weaknesses over the Production
   CBP-IT-11-38                                                                            Access Controls          3        X
                      Environment
Note 1: NFRs numbers CBP-IT-11-06 and CBP-IT-11-29 were not used in this sequence. 

Note 2: Specific system names were replaced with “CBP System” for security purposes





             Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection Financial Statement Audit
                                                                   Page 16
                                                                                      Appendix C
                             Department of Homeland Security
                            U.S. Customs and Border Protection
                         Information Technology Management Letter
                                    September 30, 2011




                                       Appendix C 

Status of Prior Year Notices of Findings and Recommendations and 

       Comparison to Current Year Notices of Findings and 

                     Recommendations at CBP 





  Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                                 Financial Statement Audit 

                                           Page 17
                                                                                                    Appendix C
                                    Department of Homeland Security
                                   U.S. Customs and Border Protection
                                Information Technology Management Letter
                                           September 30, 2011

     NFR #                                    Description                                      Disposition
                                                                                         Closed       Repeat

 CBP-IT-10-01     Separated Employees on System User Listings                              X
 CBP-IT-10-02     Segregation of Duties Control Weaknesses Within a CBP System                     CBP-IT-11-04
                  CBP System Audit Log Reviews are Not Formally Documented to
 CBP-IT-10-03                                                                                      CBP-IT-11-26
                  Include All Appropriate Information and Detail
 CBP-IT-10-04     Recertification Review of CBP System User Accounts                       X
                  Security Awareness Issue Identified During Enhanced Security
 CBP-IT-10-05                                                                                      CBP-IT-11-01
                  Testing
                  Incomplete Access Request Forms and Approvals For New CBP
 CBP-IT-10-06                                                                                      CBP-IT-11-15
                  System Accounts
 CBP-IT-10-07     Physical Security Issues Identified During Enhanced Security Testing             CBP-IT-11-02
                  Contractor Separation Procedures are Not Updated and Contractor
 CBP-IT-10-08                                                                                      CBP-IT-11-12
                  Separation Forms are Not Maintained
 CBP-IT-10-09     Employee Separation Forms are not Maintained                                     CBP-IT-11-20
                  Non-Disclosure Agreements for CBP Contractors in Moderate and
 CBP-IT-10-10                                                                                      CBP-IT-11-19
                  High-level Risk Positions are Not Completed
 CBP-IT-10-11     Installation of Virus Protections on CBP Workstations                            CBP-IT-11-28
 CBP-IT-10-12     Inadequate Role-Based Security Training Program                                  CBP-IT-11-03
 CBP-IT-10-13     Raised Floor Access Authorization Process Weaknesses                     X
 CBP-IT-10-14     CBP System User Profile Change Logs are Not Reviewed                             CBP-IT-11-05
 CBP-IT-10-15     Vulnerability Assessment Weaknesses with CBP Systems                             CBP-IT-11-27
                  Incomplete Documentation of Interconnection Security Agreements
 CBP-IT-10-16     (ISA) for CBP System Participating Government Agencies (PGA)                     CBP-IT-11-18
                  Connections
 CBP-IT-10-17     Lack of Access Requests and Approval for CBP System Account                      CBP-IT-11-22
                  Evidence of Personnel Authorization to Access Backup Media Not
 CBP-IT-10-18                                                                                      CBP-IT-11-35
                  Available
                  CBP System User Access Profile Change Log Review Procedures
 CBP-IT-10-19                                                                                      CBP-IT-11-05
                  Have Not Been Implemented
                  Unauthorized Access Attempt Setting for the Mainframe Have Not
 CBP-IT-10-20                                                                              X
                  Been Configured
                  Background Investigations and Reinvestigations for CBP Employees
 CBP-IT-10-21                                                                                      CBP-IT-11-11
                  and Contractors are Not Completed
                  Lack of Monitoring of Developer Emergency/Temporary Access to
 CBP-IT-10-22                                                                                      CBP-IT-11-07
                  CBP System Production
 CBP-IT-10-23     Lack of Access Requests and Approval for CBP System Accounts                     CBP-IT-11-13
 CBP-IT-10-24     CBP System Functionality Issues                                                  CBP-IT-11-31

Note: Specific system names were replaced with “CBP System” for security purposes.


      Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection
                                     Financial Statement Audit
                                               Page 18
                                                                                    Appendix D
                           Department of Homeland Security
                        Immigration and Customs Enforcement
                       Information Technology Management Letter
                                  September 30, 2011

                 Report Distribution

                 Department of Homeland Security

                 Secretary
                 Deputy Secretary
                 General Counsel
                 Chief of Staff
                 Deputy Chief of Staff
                 Executive Secretariat
                 Under Secretary, Management
                 Commissioner, CBP
                 DHS Chief Information Officer
                 DHS Chief Financial Officer
                 Chief Financial Officer, CBP
                 Chief Information Officer, CBP
                 Chief Information Security Officer
                 Assistant Secretary for Office of Policy
                 Assistant Secretary for Office of Public Affairs
                 Assistant Secretary for Office of Legislative Affairs
                 DHS GAO/OIG Audit Liaison
                 Chief Information Officer, Audit Liaison
                 CBP Audit Liaison

                 Office of Management and Budget

                 Chief, Homeland Security Branch
                 DHS OIG Budget Examiner

                 Congress

                 Congressional Oversight and Appropriations Committees, as
                 appropriate




Information Technology Management Letter for the FY 2011 U.S. Customs and Border Protection 

                               Financial Statement Audit 

                                         Page 19
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
